C@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:

contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-1029
BETHANY AUSTIN,
Petitioner,
Vv.
STATE OF ILLINOIS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE. WOODHULL. FREEDOM FOUNDATION IN SUPPORT OF PETITIONER in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotés, and this
brief contains 5907 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 20th day of March, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

. , 4
nme ). hoor Ondraw-h: Ghle

My Comm. Exp. September 6, 2023

 

Notary Public / Affiant

39571
